     Statement of Gregory H. Friedman

             Inspector General

         U.S. Department of Energy



                Before the

        Subcommittee on Oversight

Committee on Science, Space, and Technology

       U.S. House of Representatives




                                     FOR RELEASE ON DELIVERY
                                                       2:00 PM
                                                 March 14, 2013
Mr. Chairman and members of the Subcommittee, I appreciate the opportunity to testify today on
the major challenges facing the Department of Energy as viewed through the prism of the Office
of Inspector General (OIG).


The Department of Energy is a multi-faceted agency responsible for executing some of the
Nation's most complex and technologically advanced missions. These missions include cutting
edge work in basic and applied science, clean energy innovation, energy efficiency and
conservation, environmental cleanup, medical applications, nuclear weapons stewardship, and
efforts to enhance national security. In order to execute this diverse portfolio, the Department
receives an annual appropriation approaching $30 billion, employs nearly 110,000 Federal and
contractor personnel, and manages assets valued at over $180 billion.


The underpinning of virtually all Departmental missions is related to science and technology. Its
complex of 17 national laboratories, 16 of which have been designated as Federally Funded
Research and Development Centers (FFRDC), and its extensive financial assistance for research
in independent settings underscore the Department's status as a leader for science in the United
States.


The OIG provides independent oversight of the Department's operations through a robust
program of audits, inspections and investigations designed to promote economy and efficiency,
and to detect and prevent fraud, waste, abuse, and mismanagement. Because of the prominence
of and the resources committed to the Department's science and technology mission, a
substantial portion of our work focuses on these important areas. A full inventory of related
reports can be found at: http://energy.gov/ig/calendar-year-reports. It is this body of work that
forms the basis of my testimony today.




Department of Energy Management Challenges
Annually, the OIG identifies what it considers to be the most significant management challenges
facing the Department. We have a unique, independent perspective, which allows us to provide
management, the Congress, and the citizenry with an unfiltered view of Departmental operations.

                                                 1
For FY 2013, our list of significant management challenges and our watch list of emerging issues
included:


Management Challenges
   •   Operational Efficiency and Cost Savings
   •   Contract and Financial Assistance Award Management
   •   Cyber Security
   •   Energy Supply
   •   Environmental Cleanup
   •   Human Capital Management
   •   Nuclear Waste Disposal
   •   Safeguards and Security
   •   Stockpile Stewardship


Watch List
   •   Infrastructure Modernization
   •   Loan Guarantee Program
   •   Worker and Community Safety



These challenges impact virtually all of the Department's mission activities. They are not easily
resolved and must, therefore, be addressed through a concerted, persistent effort over time.


Anticipating tight Federal budgets in the future, as part of the process of developing our list of
management challenges for FY 2012, we stepped out of our comfort zone and presented the
Department with five suggestions for reducing its cost of operations and enhancing agency
efficiency. I would like to provide an overview of the management challenges and then focus
specifically on the area of Operational Efficiency and Cost Savings.




                                                  2
                     Contract and Financial Assistance Award Management
The Department of Energy is the most contractor-dependent agency on the civilian side of the
Federal government. The Department provides massive amounts of funding through contracts
and other financial assistance awards to its own laboratories, for-profit companies, academic
institutions, and non-profit organizations. In fact, the vast majority of Departmental funding is
distributed through a combination of contracts, grants, cooperative agreements, and other
financial assistance awards. Under these circumstances, successful contract management is
essential. Numerous OIG reports have documented the barriers and missteps associated with
successfully managing the Department's contracting process. Widely publicized concerns with
the management of a number of major, multi-million dollar projects, all under the auspices of the
Department's contractors, reflect the depth of this issue. For these reasons, Contract and
Financial Assistance Award Management remains a significant management challenge.


                                          Cyber Security
Given the importance and sensitivity of the Department’s activities, along with the vast array of
data it processes and maintains, protecting cyber assets has become a crucial aspect of the
Department’s overall security posture. As a whole, the Department invests about $2.1 billion
each year in information technology. Although the Department has implemented numerous
countermeasures in recent years, security challenges and threats to the Department’s information
systems continue and are constantly evolving. As such, it is critical that cyber security protective
measures keep pace with these growing threats. As a result of the inherent risks associated with
the sensitivity of much of the Department’s work, we have identified Cyber Security as a
continuing management challenge.


                                          Energy Supply
Fundamental concerns related to the availability of energy in the U.S. have had a dramatic
impact on consumers and the economy, with implications on national security. Through its role
in areas of scientific discovery and innovation, there is an expectation that the Department will
play a leadership role in ensuring that the Nation’s energy needs are met through the
development, implementation, and execution of sound energy policy. Providing the leadership
to ensure a reliable, affordable, and environmentally sound Energy Supply represents a

                                                 3
significant management challenge for the Department, which will require both short-term and
long-term solutions.


                                      Environmental Cleanup
In the 1980's, the Department began an expedited process to dispose of large volumes of
radioactive, hazardous, and mixed waste resulting from many years of nuclear defense and
energy research work. This involves remediation efforts covering millions of acres of land in 35
states, the engagement of more than 30,000 Federal and contractor employees, and an unfunded
Federal remediation liability of approximately $268 billion. The entire effort, perhaps the largest
and most complex of its kind ever undertaken, will continue well into the future. While there
have been a number of notable programmatic successes, significant difficulties have been
encountered. As a result, Environmental Cleanup remains a management challenge that warrants
attention by the Department's senior leadership.


                                   Human Capital Management
Strategic management of human capital, recognized as one of the Government’s most significant
challenges, directly affects the Department of Energy. This applies both to the Federal and
contractor workforces. The Department has endeavored to address these concerns. To cite one
example, recognizing the importance of enhancing staff project management skills, the
Department analyzed critical skills gaps in this area and developed a specific strategy to fill those
needs. However, Human Capital Management remains a challenge for several reasons: (1) the
Department and its contractors face a significant "baby boomer" retirement turnover resulting in
the loss of highly skilled employees; (2) the reality of the current Federal budget environment
will lead to potential job losses – again having an impact on the Department's skilled workforce;
and, (3) the intense public/private sector demand for a competent workforce has made job
recruitment and retention a continuing concern for the Department and its contractors. This
challenge represents a critical area that will affect nearly all of the Department's programs going
forward.




                                                   4
                                      Nuclear Waste Disposal
Under the Nuclear Waste Policy Act of 1982, the Department is responsible for the management
and safe disposal of high-level defense and commercial nuclear waste. For a number of years,
the development of the Yucca Mountain Nuclear Waste Repository in Nye County, Nevada, was
the centerpiece of this effort. The Department’s FY 2010 budget request, however, included no
funding for the Yucca Mountain Project, effectively terminating the project and the work of the
Office of Civilian Radioactive Waste Management. Since that time, the Blue Ribbon
Commission on America’s Nuclear Future, created by the President and the Secretary, issued its
findings and suggested new policies for managing the back end of the nuclear fuel cycle.
However, despite the work of the Commission, solutions for the nuclear waste disposal issue
have not yet been fully defined or approved and, at best, will take decades to implement. Given
the importance of a nuclear waste disposal strategy that protects public health, safety, and the
environment and the current uncertainties associated with such a strategy, Nuclear Waste
Disposal remains a significant challenge facing the Department.


                                      Safeguards and Security
The Department is responsible for safeguarding some of the Nation's most sensitive facilities and
materials, including the nuclear weapons complex, the national laboratory system, a variety of
sensitive materials, and other critical infrastructure assets. Recent events, including those at the
Y-12 National Security Complex, have highlighted the need for a robust security apparatus with
effective Federal oversight. Consequently, we have elevated Safeguards and Security to the list
of significant management challenges.


                                       Stockpile Stewardship
The Department is responsible for the reliability of the Nation’s nuclear weapons stockpile. To
help ensure that these assets are mission ready, the Department, using a science-based strategy,
conducts stockpile surveillance and engineering analyses, refurbishes and updates selected
nuclear systems, and maintains the ability to restore its aging weapons production infrastructure.
This massive National Nuclear Security Administration (NNSA) undertaking involves the
administration of three defense laboratories, management of the weapons production complex,
and frequent interactions with the U.S. Department of Defense on related matters. Both OIG and

                                                  5
Government Accountability Office reports have identified concerns with project management,
delays in refurbishment efforts, and facility safety and security, all in an era of declining budgets.
Even though the Department and NNSA have taken steps to address these issues, the Stockpile
Stewardship challenge persists.


Operational Efficiency and Cost Savings
As part of our Management Challenges report for FY 2012, we concluded that Federal budgetary
concerns made finding ways to optimize agency operations and reduce costs the preeminent
management challenge facing the Department.


In this context, our Management Challenges report suggested a series of large-scale, high-impact
operational efficiency and cost reduction initiatives. Intended to provide a starting point for
further discussion and examination, these proposals include:


   •   Applying the Quadrennial Technology Review strategic planning concept to the
       Department's entire science and technology portfolio;
   •   Eliminating costly duplicative NNSA functions;
   •   Evaluating, consolidating, and/or rightsizing the Department's laboratory and technology
       complex;
   •   Reprioritizing the Department's environmental remediation efforts with the goal of
       funding the work on a risk basis; and
   •   Realigning the current structure of the Department's physical security apparatus.


Additional details follow:


Expand the Quadrennial Technology Review (QTR) strategic planning concept to the
Department's entire science and technology portfolio: In September 2011, the Department
released its inaugural QTR, in essence a research and development strategic plan. In his message
prefacing the report, the Secretary referred to the hard budget choices and fiscal challenges
facing the Department, concluding that the Department must find ways to intelligently choose
between the many technically viable activities it could pursue. The QTR, advanced as a

                                                  6
mechanism to guide these difficult choices, provided quality analysis and important information.
However, as beneficial as it may be, the scope was limited to the Department's energy-related
technology sector. We concluded that the discipline of the QTR process should be applied to the
Department's entire set of science and technology activities. This type of large-scale planning
effort would enable the Department to better evaluate its multi-billion dollar per year science
effort to determine whether its science initiatives are aligned with current priorities; identify
metrics to help decision makers confirm that research dollars are used for the highest and best
purposes; and, determine whether the work of its separate system of 16 FFRDCs are properly
integrated.


Eliminate duplicative NNSA functions: Created in response to national security concerns, NNSA
was established as a separately organized agency within the Department of Energy under the
Defense Authorization Act of 2000. NNSA maintains a set of distinctly separate overhead and
indirect cost operations that often duplicate existing Departmental functions. These include
human resources, general counsel, congressional and public affairs, procurement and acquisition,
and information technology. These expenses are significant and parallel functions that exist at
Headquarters as well as a number of field sites where Department and NNSA activities are co-
located. In addition to cost considerations, these redundancies can complicate communications
and program execution and cause different interpretations of core Departmental policy. The
sustainability of this arrangement in the current budget environment is highly questionable. We
recommend that the alignment be closely examined with the goals of consolidating overlapping
efforts, preserving scarce resources, and improving operations.


Establish a "BRAC-style" commission to analyze the Department's laboratory and technology
complex: The Department operates 16 FFRDCs at an annual cost of more than $10 billion. 1 Of
this amount, nearly $3.5 billion was spent on functions including executive direction, human
resources, procurement, legal, safeguards and security, utilities, logistics support, and
information services. In our view, the proportion of scarce science resources diverted to
administrative, overhead, and indirect costs for each laboratory may be unsustainable in the
current budget environment. We recommended that the Department, using a BRAC-style

1
    This figure excludes the sizeable "Work for Others" programs at the Department's national laboratories.

                                                           7
formulation, analyze, realign, and consolidate laboratory operations to reduce indirect costs and,
as a result, provide greater funds for science and research.


Reprioritize the Department's environmental remediation efforts: The Department's current
unfunded environmental remediation liability is approximately $268 billion. As a result of more
than 50 years of nuclear defense and energy research work, the Department spends about $6
billion per year on its environmental remediation activities. In doing so, program costs are
largely "driven" by 37 individually negotiated Federal Facility Agreements (FFA) at key
Department sites across the Nation. The FFAs involve no less than 350 milestones at these sites.
The FFAs are augmented by numerous other local agreements with their own set of actions,
requirements, milestones and due dates. The existing structure needs to be modified to reflect
the realities of significant reductions in the Department's environmental cleanup budget.
Consequently, we recommended that the Department revise its current remediation strategy and
address environmental concerns on a national, complex-wide risk basis. This would result in a
form of a complex-wide environmental remediation triage, funding only high-risk activities that
represent imminent or near term danger to health and safety, or further environmental
degradation.


Re-evaluate the current structure of the Department's physical security apparatus: The
Department spends more than $1 billion per year providing physical security for its facilities and
related materials and data. Of this amount, nearly $700 million per year is spent on a complex-
wide protective force staff of nearly 4,000 highly trained professionals. The protective force
staff is made up exclusively of contractor personnel retained through different mechanisms.
These arrangements, which lack uniformity and consistency, result in at least 25 separate
contract instruments, all with costly overhead burdens. We concluded the new budget realities
require change and we recommended an in-depth evaluation of available options. These include
a “master contract” to provide security at all Department facilities or consolidating protective
force contracts by region or Departmental entity. Perhaps of greatest importance, in our
judgment, Federalizing the protective force is an option that needs to be on the table. Protective
force contract realignment or some form of Federalization may reduce security costs and
improve the Department's physical security posture.

                                                 8
Observations
The Department of Energy faces a number of management challenges that require rigorous and
sustained efforts. In our view, current and prospective Federal budget levels will likely make the
job of resolving these challenges even more difficult. For this reason, we believe that the
Department needs to undertake a comprehensive analysis of its operations with the goals of
increasing efficiency and reducing cost. We are mindful of the fact that the proposals we have
made in this regard are difficult to implement, highly controversial, and politically challenging.
Further, to achieve long-term cost reduction, some near-term infrastructure investments may be
necessary. We look forward to working with program officials, agency management, and the
Congress in our effort to resolve the challenges facing the Department and protect the interests of
the U.S. taxpayer.


Mr. Chairman, this concludes my statement and I would be pleased to answer any questions that
the Subcommittee may have.




                                                 9
